   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




August 18, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review of Northwest Health Services, Inc.
               (A-07-10-03142)


The attached final report provides the results of our review of Northwest Health Services, Inc.
This review is part of an ongoing series of reviews performed by the Office of Inspector General
(OIG) to provide oversight of funds provided by the American Recovery and Reinvestment Act
of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-07-10-03142
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




        RESULTS OF
  LIMITED SCOPE REVIEW OF
    NORTHWEST HEALTH
       SERVICES, INC.




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-07-10-03142
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at
42 U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program. The HRSA health centers are
community-based and patient-directed organizations that serve populations with limited access
to health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points, increased demand for services (IDS), facilities investment
program, and capital improvement program (CIP). Recovery Act grants were provided to both
new and existing health centers; moreover, a center was permitted to receive more than one type
of grant.

Established in 1983, Northwest Health Services, Inc. (NHS), is a Federally-Qualified Health
Center located in northwest Missouri. It currently serves over 30,000 patients in northwest
Missouri and northeast Kansas at 16 service sites covering 10 counties. NHS offers medical
services including family practice, pediatrics, internal medicine, radiology, laboratory services,
dental services, pharmacy services, and mental health services.

On March 13, 2009, NHS applied for Recovery Act IDS grant funding in the amount of
$372,847 to hire three key staff positions (one physician and two nurses) as well as two part-time
staff positions. According to NHS’s IDS grant application, the funding would also enable NHS
to provide access to approximately an additional 1,500 residents of Buchanan County, Missouri,
who are uninsured, underinsured, or enrolled in government assistance programs. On
March 27, 2009, HRSA awarded NHS an IDS grant in the amount of $372,847.

On June 2, 2009, NHS applied for Recovery Act CIP grant funding in the amount of $1,250,090
to purchase a mobile dental vehicle and to bring telehealth services to two rural locations and one
urban location. According to NHS’s CIP grant application, the funding would benefit clinic staff
and patients by creating safer, updated clinics, thereby enhancing access to quality health care.
On June 25, 2009, HRSA awarded NHS a CIP grant in the amount of $1,250,090.

                                                 i
OBJECTIVE

Our objective was to assess NHS’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

RESULTS OF REVIEW

Based on our assessment, we believe NHS is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in NHS’s financial
management: lack of written cash management policies and procedures; lack of procurement
procedures for solicitation of services; incomplete procurement policies and procedures for
competitive bidding; and incomplete inventory record.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing NHS’s ability to account for and manage Federal funds and
to operate a community health center in accordance with Federal regulations.

AUDITEE COMMENTS

In written comments on our draft report, NHS did not directly agree or disagree with our
findings. NHS’s comments provided more detailed information on the corrective actions that
NHS had implemented or is planning to implement.

NHS’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in NHS’s written comments caused us to change either our findings or our
recommendation to HRSA. The corrective actions described in NHS’s comments were
consistent with and relevant to our findings. Therefore, we maintain that those findings and the
recommendation, as stated in our draft report, remain valid.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              The Health Center Program .................................................................................1
              Northwest Health Services, Inc............................................................................1
              Requirements for Federal Grantees .....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATION...............................................................................3

          WEAKNESSES IN POLICIES AND PROCEDURES
           AND ASSET MANAGEMENT .................................................................................4
              Lack of Written Cash Management Policies and Procedures ..............................4
              Lack of Procurement Procedures for Solicitation of Services .............................4
              Incomplete Procurement Policies and Procedures for Competitive Bidding.......5
              Incomplete Inventory Record ..............................................................................5

          RECOMMENDATION ...................................................................................................5

          AUDITEE COMMENTS…………………………………………………….…………6

          OFFICE OF INSPECTOR GENERAL RESPONSE…………………….……………..6

APPENDIX

          AUDITEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at
2 U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points, increased demand for services (IDS), facilities investment
program, and capital improvement program (CIP). Recovery Act grants were provided to both
new and existing health centers; moreover, a center was permitted to receive more than one type
of grant.

Northwest Health Services, Inc.

Established in 1983, Northwest Health Services, Inc. (NHS), is a Federally-Qualified Health
Center located in Northwest Missouri. It currently serves over 30,000 patients in northwest
Missouri and northeast Kansas at 16 service sites covering 10 counties. NHS offers medical
services including family practice, pediatrics, internal medicine, radiology, laboratory services,
dental services, pharmacy services, and mental health services.

On March 13, 2009, NHS applied for Recovery Act IDS grant funding in the amount of
$372,847 to hire three key staff positions (one physician and two nurses) as well as two part-time
staff positions. According to NHS’s IDS grant application, the funding would also enable NHS
to provide access to approximately an additional 1,500 residents of Buchanan County, Missouri,

                                                 1
who are uninsured, underinsured, or enrolled in government assistance programs. On
March 27, 2009, HRSA awarded NHS an IDS grant in the amount of $372,847.

On June 2, 2009, NHS applied for Recovery Act CIP grant funding in the amount of $1,250,090
to purchase a mobile dental vehicle and to bring telehealth services to two rural locations and one
urban location. According to NHS’s CIP grant application, the funding would benefit clinic staff
and patients by creating safer, updated clinics, thereby enhancing access to quality health care.
On June 25, 2009, HRSA awarded NHS a CIP grant in the amount of $1,250,090.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget (OMB) Circular A-122). In addition, 42 U.S.C. § 254(b) defines
requirements for health centers under the Health Center Program.

The Standards for Financial Management Systems, found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. Federal regulations also require grantees to deposit
and maintain advances of Federal funds in insured accounts whenever possible (45 CFR
§ 74.22(i)(2)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess NHS’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

Scope

We conducted a limited review of NHS’s financial viability, financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment of NHS’s
internal control structure. Rather, we performed limited tests and other auditing procedures on
NHS’s financial management system to assess its ability to administer federally funded projects.
                                                  2
We performed our fieldwork at NHS’s administrative office in St Joseph, Missouri, during
January 2010.

Methodology

To accomplish our objective, we:

   •   reviewed relevant Federal laws, regulations, and guidance, to include HRSA program and
       policy announcements;

   •   obtained and reviewed NHS’s HRSA grant application packages and supporting
       documentation;

   •   interviewed NHS personnel to gain an understanding of its accounting systems and
       internal controls;

   •   reviewed NHS’s fiscal procedures related to accounting documentation and preparation
       of financial reports;

   •   reviewed NHS’s financial statements for fiscal years (FY) 2006 through 2010;

   •   reviewed NHS’s IRS Forms 990 and supporting documentation for FYs 2006 through
       2008;

   •   performed ratio analyses of NHS’s financial statements;

   •   reviewed NHS’s independent audits for FYs 2006 through 2010;

   •   reviewed NHS’s by-laws;

   •   reviewed minutes from NHS’s Board of Director meetings; and

   •   discussed the results of our review with NHS officials on March 26, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, we believe NHS is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in NHS’s financial

                                               3
management: lack of written cash management policies and procedures; lack of procurement
procedures for solicitation of services; incomplete procurement policies and procedures for
competitive bidding; and incomplete inventory record.

WEAKNESSES IN POLICIES AND PROCEDURES
AND ASSET MANAGEMENT

Lack of Written Cash Management Policies and Procedures

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes. In
addition, pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain
advances of Federal funds in insured accounts whenever possible. FDIC policy states that
deposits owned by a corporation, partnership, or unincorporated association are insured up to
$250,000 at a single bank.

Also, pursuant to 45 CFR § 74.21(b)(6), grantees also must have written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with the
provisions of the applicable Federal cost principles and the terms and conditions of the award.

NHS did not have written policies and procedures that would provide effective control over and
accountability of all funds, property, and other assets. Specifically, NHS did not have written
policies and procedures to ensure that the receipts and deposits of miscellaneous income were
adequately documented. Funds that are not adequately safeguarded can be used for unauthorized
purposes.

In addition, NHS did not have written cash management policies and procedures to ensure that
cash balances did not exceed federally insured limits. Funds that exceed FDIC limits are subject
to an increased risk of loss in the event of a bank failure.

Furthermore, NHS did not have written policies and procedures to determine the reasonableness,
allocability, and allowability of costs, such as expenses associated with gifts or luncheons, in
accordance with applicable cost principles. A cash management system whose policies and
procedures do not adequately allocate funds may encourage unacceptable use of Federal grant
and contract funds.

Lack of Procurement Procedures for Solicitation of Services

Pursuant to 45 CFR § 74.44 (a)(3)(i), (ii), and (iv), grantees are required to establish written
procurement procedures, which require solicitations for goods and services to provide a clear and
accurate description of the technical requirements for the material, the product or service to be
procured, the requirements which the bidder/offeror must fulfill and all other factors to be used
in evaluating bids or proposals, and the specific features of “brand name or equal” descriptions
that bidders are required to meet when such items are included in the solicitation.

                                                  4
NHS retained the services of several consultants to provide recruitment, attorney services,
information technology services, and auditor services. NHS did not have written procedures to
ensure that the consultants were the most qualified to perform the services required by NHS at a
reasonable fee. Therefore, material, products, or services that are purchased by NHS at the
consultants’ recommendation may not meet a clear and accurate description of requirements.

Incomplete Procurement Policies and Procedures for Competitive Bidding

Pursuant to NHS Administrative Policy AF-22, Procurement and Purchasing:

       NHS shall use competitive bidding whenever possible and practical. Informal
       competitive pricing shall be used when reasonable and feasible. NHS shall
       comply with all requirements, laws and regulations regarding purchases and
       expenditures including, but not limited to, Section 330 of the Public Health
       Services Act, OMB Circulars A-110 and A-1 and the Internal Revenue Code.
       Exceptions to this policy must be approved by the Chief Executive Officer and be
       documented for file.

NHS had generalized written policies and procedures concerning competitive bidding, but these
policies and procedures were incomplete as to the precise measures to be employed. In practice,
NHS used a three-minimum bid process for procurement actions, but this process had not been
included in its policies and procedures. The absence of this level of detail could lead to a
miscommunication of NHS policies and procedures which could, in turn, increase the chances of
improper procurements of goods and services.

Incomplete Inventory Record

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes. In
addition, 45 CFR §§ 74.34(f)(3) and 74.44(a) require grantees to establish written procurement
procedures and to maintain inventory control systems and take periodic physical inventory of
grant-related equipment.

The NHS inventory record lacks valid details such as information on the sources of items of
property; explanations of whether the title for each piece of property vests in the grantee or in the
Federal Government; and additional information such as prices, condition, and the disposal of
property. Not adequately recording all assets could cause a delay or inability to detect
misappropriation of assets by theft or fraud.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing NHS’s ability to account for and manage Federal funds and
to operate a community health center in accordance with Federal regulations.

                                                  5
AUDITEE COMMENTS

In written comments on our draft report, NHS did not directly agree or disagree with our
findings. NHS’s comments provided more detailed information on the corrective actions that
NHS had implemented or is planning to implement.

NHS’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in NHS’s written comments caused us to change either our findings or our
recommendation to HRSA. The corrective actions described in NHS’s comments were
consistent with and relevant to our findings. Therefore, we maintain that those findings and the
recommendation, as stated in our draft report, remain valid.




                                                6
APPENDIX
                                                                                                                               Pagelof8


                              APPENDIX: AUDITEE COMMENTS 





              e, -                                       .,
                                                                                                         2303 Village Drive
                    NORTHWEST HEALTH SERVICES INC                                                Sl Joseph, MO 64506-4954

"",




      July 13, 2010
                                                        - .                lid
                                                                                                       PO Box 8612
                                                                                                 Sl Joseph, Me 6450U612
                                                                                                        Phone (816) 271-8261
                                                                                                         Fax (816) 232-8421




      Report Number: A-07-1Q-01l 42

      Patrick J. Cogley 

      Region al Inspector General for Audit Services 

      Region VI! 

      601 East 12'" Street 

      Room 042 9 

      Kansas City, Missouri 64106 




      Dear Mr. Cogley:

      As request ed by you In your letter dated July 9, 2010 the following are our comments on you r findings
      and recommendations per Report Number A.(I7·10.(13 142.

      Lack of Written Cash Management Poli cies and Procedures:

      Finding: NHS did not have a written policies and procedures to ensure that the receipts and deposi t s of
      miscellaneous Income were adequately documented.

      Response: NWH did have a policy and procedure, AF -20 Revenue and Expense Re<:ogn ition, but lacked
      specific language concerning Miscellaneous Revenue . Since the audit an upda ted policy was Board
      approved dated Apri l 8, 2010 Wit h the following additional language,        ~M is.cell aneous   revenue will be
      recognized when received unless such amount is easily deter mine d and reaso nably collectible.
      Miscellaneous revenue could include well baby clinic rece ipts, property ren t al Income, donations,
      interest income, etc. The receipt will be d osed to the general ledger t hat is most appropria t e for the
      reven ue .~   See attached policy AF-20

      Findi ng: NHS did not have w ritten cash managemen t policies and procedu res to ensure tha t cash 

      balances did not exceed federally Insured limits. 


      Response : NHS did not have an Investment policy. Board approved investmen t policy dated April 8,
      2010 addressing t he insured limits. See attached policy AF-06.

      Findi ng: NHS did not have written policies and procedures 10 det erm ine the reasonableness, allocability,
      and alio wabiJi! y of costs, such as   e~penses   associated w ith gil ts or luncheons, in accordance w ith
      applicable cost principles.
                                                                                                                  Page2of8




 Finding: NHS did not have written policies and procedures to determine t he reasonableness, allocability,
 and allowabili ty of costs, such as   e~penses   associated with gifts or luncheons, In accordance with
 applicable cost principles.

 Response: NHS will research and develop an appropriate policy and procedure to address this finding
 and receive Board approval.

 Lack of Proc urement Procedures of SQlidtalion of Services

 Findi ng: NHS did not have written procedures to ensure that the consultants were the most qualified t o
 perform the services required by NHS at a reasonable fee.

 Response : NHS w ill research and develop a procedure to address this finding and receive Board
 approval.

 Incomplete Procurement Policies and Procedures for Competitive Bidding

 Fin ding: NHS had generalized written policies and procedures concerning competitive bidding, but these
 policies and procedures were incomple te as to the precise measures to be employed.

 Response : As previously mentioned, NHS does have a Procurement policy (AF·22) but according to the
 findings lack speCifici t y on the process. NHS w ill include in the current policy more speci fics to address
 the find ings and receive Board approval.

 Incomplete Inventory Record

 f inding: NHS inventory record lacks valid details such as information on the sources of items of 

 property;    e~planations   of whethe r the t itle for each piece of property vests in the grantee or in the 

 Federal Government; and the disposal of property. 


 Response: AF·12     Fi~ed   Asset policy addresses the costs, disposals and physical inventories . The policy
 and the inventory does lack the specifics of the vest ing of the property and the condition of the
 proper\V. NHS will review the fin ding in more detail and receive advice on how to address t his finding.
 See attached AF · 12 policv.

 If I can answer aroy questioros concemirog our response or you need further information please con t act
 me at 816·211·8264 or via email at       benernsl@nwhe~lth ·$erv ice s.orB .


 SincerelV.
Data Redact ed by DIG

 Ben Ernst,
 CEO

 (3) Enclosures 

 Policies & Procedures: AF·06; AF·12; AF· 20 

                                                                                                              Page30fS




Northwest Health Services, Inc.                                          Administrative Policy
                                                                                             NO. AF-06

TITLE:
                                                  7)

                                 ~¥j;TA;,m
                                 I
DEPARTMENT:
APPRO VED BY:
                                      1 >iCr,.v)
                                             t;iS          B'Vo
                                                             'Y,U
                                                                DIG
                                                                  IG­       i
BOARD PRESIDENT:
ORIGINATED BY:
REVI SED BY:
EFFECTIVE OATE:                  April 08, 2010
SUPERSEDES DATE:



 PURPOSE:

      The objective 01 the investment policy of Northwest Health Services. Inc. is to provide as
      reasonable rate of return on investments as Is consistent with prudent investment risk
      while providing adequate liquidity to meet the organization's requ irements.

 POLICY:

             The fimmcc and Audit Commillcc on a regular basis should review investment activity. 

             When held in a commercial bank. investmoots of Northwest Health Services, Inc. should 

             not exceed 5250,000 in anyone institution for fedeml insurances purposes. 

             Accounts such as interest-bearing checking accounts. money mar1<.et accounts, 

             certificates 01 deposit, investment-grade commercial paper, and governmental securities 

             are to be the primary investments. Investment in any other type of investment vehicle 

             requires prior approval by the finance and audit comminee. 

             A current list 01 financial insHlulions approved as depositories for investment ~ II be kept 

             on file and updated regu larly by the finance and audit committee. 

         •   All securities are to be written in the name of Northwest Health Services, Inc.




This policy and procedvre shall be periodically reviewed and vpdate d consisten t with the
reQvirements and standards established by the Board of Directors and by Northwest Health
Sarvices, Inc. management. Federal snd Stsle law and regvlaUons, and applicable accrediting and
review organiz ation s.




                                                                                              AF-06- 1.1
                                                                                               Page4of8




NORTHWEST HEALTH SERVICES , INC.                                   ADMINISTRATIVE POLICY
                                                                               NO. AF-12

TITLE : 	                     F~XED A~ETS            .....--....
DEPARTMENT:                   Fmance!            (           )          /
                                DATA REDACTED BY DIG
APPROVED BY:


ORIGINATED BY:
EFFECTIVE DATE:               06124/10
SUPERSEDES DATE:              6123110


PURPOSE:

Furniture. fixtures. medical equipment. computer. and other off ice equipment (known as
Fixed Assets) are an important part 01 the overall service provided to patients. The
Cen ter has an obligation to safeguard these asse ts against loss or damage during the
life of the assets. Additionally. the Center must maintain lixed assets in gOOd repair Iii
for their intended use. Staff needs to be trained in the proper use of equipment 10
minimize Ihe risk of injury to patients and stall.

POLICY:

All Fixed Assets (see definition) of the Center shall be acquired in accordance with Ihe
Purchasing and Procurement Policy. Upon acquisition. each asset will be tagged with
an identifying number and logged into the fixed asset system with an indication of its
physical 10caHon. The Center shalt assure that all assets are maintained in proper
working order and that staff are trained in p roper operations.

All lixed assets must be insured or otherwise protected against risk 01 loss. Computer
and other equipment as required must be listed and specifically insured. The Center
shall pertorm a physical inventory of all fi ~ ed asse ts at least annually. reconciling any
variances from the fixed asset data base.

All assels shall be depreciated according to Ihe AHA depreciation guidelines, unless
otherwise justified. Obsolele or assets no longer used should be written 011 and
disposed 01 by: t) Donation to another non-proHI organization: 2) oHered for sale to staff
and/or the ge neral public: or 3) destroyed according 10 local o rdinances.

APPROVALS:

   • 	 Approval for Fi,lCcd Asset acquisitions is detailed in Ihe policy tilled · Purchaslng
       and Procurement".
   • 	 The Controller Shall dete rmine the designation of purchased goods as a Fixed
       As sel and determine the proper asset ca tegory and useful life.
   • 	 The Board of Directors shall approve disposals 01 assets with a book value 01
       $25,000.00 or more,

DEFINITIONS
                                                                                                             PageSofS




    Po licies & Procedu res      NORTHWEST HEALTH SERVICES. INC.                 AdmiJlCslralivc Policy: 

    Fi~ed Assets                                                                            No. AF·12 




)
         1. 	 Fixed Assel: An asset such as equipment or furnish ings wi th a useful life of
             more than one year,

        2. 	 Usefu l Lile: The period of time thaI an asset will provide uti lity or service for its
             intended use,

        3. 	 Capitalized (Depreciable) Fixed Asset: An asset (or a group of like assets)
             with the same useful life with an original cost of $1 ,500.00 or more.

        4. 	 Group of Like Ass ets: Assets of the same type (Le. waiting room chairs) with
             the same usetullite with an aggregate original cost of $1,500.00 or more, but an
             individual cost less than ~500.00.

         5. 	 Original Cost: The total cost of placing an asset into service. including the
              invoice price, freight, installation costs, and other fees needed to use the asset
              for its intended purpose.

         Fi xed Asset Categories:
                     Land: Land and improvements held for operations purposes, but not
                     land held for investment purposes
                     Building and Improvements: Buildings and improvements, such as
                     parking lois. held for operations purposes, but nol including buildings held
                     for investments.
)                    Medical Equipment : Equipmenl and instruments used in medical
                     procedures or direct patient care, including laboratory and/or radio logy
                     equipment.
                     Dental Equipment:          Equipment and instruments used in dental
                     procedures and/or direct patient care, including laboratory and/or
                     radiology equipment.
                 • 	 Office Equipment: All equipment that is used for ollice fu nctions and
                     processes including patient information processing not considered direct
                     palient care. This category includes telecommunications equipment,
                     digital photo copiers, postage meters, fax machines, etc.
                     Leasehold Improvements; Improvements made at Center expense to
                     leased property held for operations purposes that are a permanent part of
                     the leased property and cannot be removed from the proper1y at the end
                     01 the lease,

    PROCEDURES:

             Purchase s

                  • 	 The CFO shall prepare a Capital Budget, along with the Annual Operating
                      Budget, to be presented to the Board 01 Directors lor approval 01 capitat
                      e ~p enditures for depreciable fixed assets.
                      A Purchase Order must be completed and approved by authorized signer
                      beloro a fixed assel may be purchased (See Purchasing and
                      Procurement policy No. AF-01).



                                                                                            AF· 12-2.4
                                                                                                      Page60fS




    Policies & Procedures        NORTHW EST HEALTH SERviCES, INC.            Administralive Policy:
    Fixed Assets 	                                                                      No. AF·12



)                • 	 The COO or a designated employee shall be responsible for checking in
                     Fixed Asset purchases.
                         o 	 The Packing Slip (PS)' if available, shall be checked to verify the
                             receipt of the proper asset. The PS, and any other documents,
                             should be forwarded as soon as possible to the Accounting
                             Department.
                         o 	 All lixed asset(s) shall be tagged with a numbered NHS lixed
                             asset label by the designated employee. Notice of Fixed Asse t
                             Change (on SharePoint or available uoan request from
                             Accounting Department) needs to be completed & forwarded to
                             the Controller.
                 • 	 When the invoice arrives, the Accounting Department shall match it to the
                     PS and PO, and note the terms are as ordered, and attach the PO, PS
                     and other documentation.
                     The Accounting Department shall code the invoice with the appropriate
                     general ledger and fixed asset account for payment. A copy of the
                     invoice is given to the Controller.
                         o 	 The Controller shall post capitalized assels 10 the Fixed AsseV
                             Depreciation module in the accounting system. All fixed asset(s)
                             shall be enlered into the Fixed Asset module, noting the label
                             number, location of the asset, and serial number or other
                             identifying number if available.

            Physicallnvenlory
)
                 • 	 Each clinic manager clOd/or other designated employee shall be
                     respon sible for taking a physical inventory of all fixed assets at their
                     specified clinic at least annually.
                         o 	 Each fixed asset will be verified from the Fixed Asset module and
                             fixed asset spreadsheet to ttle physical asset by number and
                             location.
                         o 	 All assets shou ld be examined for an appropriate NHS label.
                         o Any discrepancies will be investigated and explained if pos..c;ible.
                     The CFO shall report the findings of the Fixed Asset Inventory to the
                     Finance Committee.
                 • 	 If fixed assets are moved from one locationfclinic \0 other
                     locationS/clinics. then a Notice of Fixed Asset Change form needs to be
                     completed and forwarded to the Controller.

            Asset Disposal

                 • 	 Assets tha t have become obsolete, arc being replaCed, or are no longer
                     needed, must be disposed of in a prudent manner that will maximize
                     whatever value is remaining in the asset.
                        o 	 Assets may be sold or donated to other non-profit organizations
                            and agencies.
                        o 	 Assets may be trad ed into a vendor in a transaction to purchase
                            new equipment.
                        o 	 Assets may be offered to employees or the general public on a
                            price offer basis or bid basis.


                                                                                        AF-t2·3.4
                                                                                                       Page7of8




    Policies & Procedures       NORTHWEST HEALTH SERVICES, INC.              Admlnisl ralive POlicy:
    Fixed Assels                                                                         NO. AF·12



)                        0 	 Assets may need to be destroyed or nauled 10 a dump il no use is
                               foreseen. All laws and regulations regarding dumping must be
                               followed.
                 • 	 II a l ixed asset is obsolete or disposed of, then a Notice of Fixed Asset
                     Change torm needs to be completed and torwarded to the Controller.
                 • 	 The Controller will ma rk the fi xed asset as "disposed" in the Fixed
                     AsseUDepreciation module in the accounting system, dated for the dale
                     indicated on the Notice of Fixed Asset Change.




)




    This policy and procedure shall be periodiC,llly reviewed and updated consistent with the
    requirements and standards established by the Board o( Directors alld by Northwest
    Heilltl. Services, Inc. management, Federal and State law and regulations. and applicable
    accrediting and review organizations.




                                                                                        AF-12-4.4
                                                                                                       PageSofS




NORTHWEST HEALTH SERVICES , INC.                            ADMINISTRATIVE POLICY
                                                                                NO. AF-20

TITLE:                        REVENUE AND EXPENSE RECOGNITION
DEPARTMENT:                    Finane¢'"      t--J
APPROVED BY:                     DATA REDACTED BY OIG
BOARD PRESIDENT:
ORIGINATED BY:
EFFECTIVE DATE:               April 8, 2010
SUPERSEDES DATE :             September 25, 2008


PURPOSE:

To accurately recogn ize Northwest Health Services revenues and expenses in accordance with
generally accepted accounting principles.

POLlCY:

Revenues and expenses will be recogn ized on the accrual basis of accounting. Items subject to
accrual will be recogn ized when received, ra ther than during the period used. Altt10ugh most
items are recogni zed on the accrual basis, there are some items that may be recogni zed on a
cast1 basis.

Patient fees lor services rendered will be recogn ized when the service is perlormed. Patient
lees will be classified by Insurance payer such as: sliding lee, priva te pay, Medicare, Medicaid
and private insurance. Detailed patient receivable will be maintained by payer and aged on a
monthly basis.

Bureau 01 Primary Health Care grant revenue will be recogn ized on a per month basis. This is
wt1at is requi red to meet expenditures beyond that 01 patient reven ue generated. Grants lor
programs whereby rev enue is not generated will be recogn ized to th e extent 01 grant
exp enditures.

Miscellaneous revenue will be recogni zed when received unless such amount is easily
determinable and reasonably collectible. Miscellaneous revenue could include well baby clinic
receipts, property rental income, donations, interest income, etc. the receipt will be closed to the
general ledger Ihal is most appropriate fo r the revenue .




Thi s p olicy a nd proc edure s hall be periodlcaJly re vie wed a nd upda ted c onsi stent wi th the
requi remen ts and s tandards establis h ed by th e Board of Di rectors and by Northwe$ t Health
Servi ces managemen t, Federal and State law and reg ula ti ons, and applicable accrediting and
review organ izations.

                                                                                 AF-20- 1.1
